U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose Cesar Sanchez, et al. v. United States of America
S.Ct. No. 21-5511

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 24,
2021, and placed on the docket on August 30, 2021. The government’s response is due on
September 29, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5511
SANCHEZ, JOSE CESAR, ET AL.
USA

GAIL IVENS
PO BOX 664
KING CITY, CA 93930

